                                                                 Issue Date
                                                                          July 20, 2007
                                                                 Audit Report Number
                                                                          2007-CH-1010




TO:        Steven E. Meiss, Director of Public Housing Hub, 5APH


FROM:      Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Madison County Housing Authority, Collinsville, Illinois, Did Not
           Effectively Administer Its Section 8 Housing Choice Voucher Program

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Madison County Housing Authority’s (Authority) Section 8
             Housing Choice Voucher program (program). The audit was part of the activities
             in our fiscal year 2006 annual audit plan. We selected the Authority based upon
             our analysis of risk factors relating to the housing agencies in Region V’s
             jurisdiction. Our objective was to determine whether the Authority administered
             its program in accordance with the U.S. Department of Housing and Urban
             Development’s (HUD) requirements.

 What We Found

             The Authority’s program administration regarding housing unit conditions,
             documentation to support tenant eligibility, and housing assistance payment
             calculations was inadequate. Of the 48 housing units statistically selected for
             inspection, 40 did not meet HUD’s housing quality standards, and 35 had 264
             violations that existed at the time of the Authority’s previous inspections. The 35
             units had between 1 and 34 preexisting violations per unit. Based on our
             statistical sample, we estimate that over the next year, HUD will pay more than
             $623,000 in housing assistance for units with housing quality standards violations.

             The Authority incorrectly calculated households’ payments, resulting in more
             than $39,000 in overpayments and $13,000 in underpayments for the period
             January 2005 through August 2006. Based on our statistical sample, we estimate
           that over the next year, the Authority will overpay more than $137,000 in housing
           assistance. It did not ensure that its households’ files contained required
           documentation to support its housing assistance and utility allowance payments.
           Of the 88 files statistically selected for review, 20 did not contain documentation
           required by HUD and the Authority’s program administrative plan to support
           more than $126,000 in housing assistance payments.

           The Authority also failed to adequately use HUD’s Enterprise Income
           Verification system to determine that reported zero-income households had
           unreported income, resulting in more than $14,000 in improper housing assistance
           payments.

What We Recommend

           We recommend that the director of HUD’s Chicago Office of Public Housing
           require the Authority to reimburse its program from nonfederal funds for the
           improper use of nearly $84,300 in program funds, provide documentation or
           reimburse its program more than $140,000 from nonfederal funds for the
           unsupported housing assistance payments and administrative fees, and implement
           adequate procedures and controls to address the findings cited in this audit report
           to prevent more than $784,000 from being spent on units with material housing
           quality standards violations and excessive housing assistance.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our file review results and supporting schedules to the director of
           HUD’s Chicago Office of Public Housing and the Authority’s executive director
           during the audit. We also provided our discussion draft audit report to the
           Authority’s executive director, its board chairman, and HUD’s staff during the
           audit. We held an exit conference with the executive director on June 19, 2007.

           We asked the executive director to provide comments on our discussion draft
           audit report by July 9, 2007. The executive director provided written comments,
           dated July 6, 2007. The executive director generally agreed with our
           recommendations. The complete text of the written comments, along with our
           evaluation of that response, can be found in appendix B of this report except for
           274 pages of documentation that was not necessary for understanding the
           Authority’s comments. A complete copy of the Authority’s comments plus the
           documentation was provided to the director of HUD’s Chicago Office of Public
           Housing.




                                            2
                            TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding 1: Controls over Housing Quality Standards Need Improvement          5

      Finding 2: Controls over Housing Assistance and Utility Allowance Payments
                 Were Inadequate                                                   11

      Finding 3: The Authority’s Zero-Income Households Had Unreported Income      15

Scope and Methodology                                                              17

Internal Controls                                                                  20

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               22
   B. Auditee Comments and OIG’s Evaluation                                        23
   C. Federal Requirements                                                         29




                                             3
                      BACKGROUND AND OBJECTIVE

The Madison County Housing Authority (Authority) was created pursuant to an act of the State
of Illinois’ General Assembly and pursuant to a certificate of determination of the need for the
creation of a housing authority in Madison County, Illinois, issued by the State Housing Board
on August 22, 1939. A seven-member board of commissioners governs the Authority.

The Authority administers a Section 8 Housing Choice Voucher program (program) funded by
the U.S. Department of Housing and Urban Development (HUD). It provides assistance to low-
and moderate-income individuals seeking decent, safe, and sanitary housing by subsidizing rents
with owners of existing private housing. As of May 2007, it had 965 units under contract with
annual housing assistance and utility allowance payments totaling more than $4.5 million in
program funds.

Our objective was to determine whether the Authority administered its program in accordance
with HUD’s requirements. This included determining whether (1) the Authority’s inspections
were sufficient to detect housing quality standards violations and provide decent, safe, and
sanitary housing to its residents; (2) the Authority complied with HUD requirements by
obtaining the necessary documentation to determine household eligibility; (3) the Authority
properly calculated the housing assistance payments; and (4) whether the Authority’s zero-
income households had unreported income.




                                                4
                                RESULTS OF AUDIT

Finding 1: Controls over Housing Quality Standards Need Improvement
The Authority did not adequately enforce HUD’s housing quality standards. Of the 48 program
units statistically selected for inspection, 40 did not meet minimum housing quality standards,
and 35 had material violations that existed before the Authority’s previous inspections. The
violations occurred because the Authority lacked adequate procedures and controls to ensure that
its program units met HUD’s housing quality standards. As a result, nearly $28,000 in program
funds was spent on units that were not decent, safe, and sanitary. We estimate that over the next
year, the Authority will pay more than $623,000 in housing assistance on units with housing
quality standards violations.



 HUD’s Housing Quality
 Standards Not Met

              The Authority entered into a contract with U.S. Inspection Group, Incorporated to
              perform housing quality standards inspections of its program units. From the 165
              program units that passed the inspections performed by U.S. Inspection Group
              between September 1 and November 30, 2006, we statistically selected 48 units
              for inspection by using the ACL Statistical Sampling System software. The 48
              units were inspected to determine whether the Authority ensured that its program
              units met HUD’s housing quality standards. Our appraiser inspected the 48 units
              between January 8 and January 25, 2007.

              Forty of the units inspected had a total of 373 housing quality standards
              violations. In addition, 35 units were considered to be in material noncompliance
              since they had exigent health and safety violations that predated the Authority’s
              previous inspections. Of the 373 violations, 264 predated the Authority’s
              inspections. The following table categorizes the 373 housing quality standards
              violations in the 40 units.




                                                5
                                                                 Number of
                                 Category of violations          violations
                        Electrical                                  80
                        Windows                                     35
                        Security                                    26
                        Exterior stairs                             22
                        Interior stairs                             21
                        Other hazards                               20
                        Interior walls/surfaces                     18
                        Floor                                       18
                        Range/refrigerator                          17
                        Exterior surfaces                           13
                        Smoke detectors                             12
                        Lead-based paint                            12
                        Safety of heating equipment                 11
                        Ventilation                                 10
                        Roof                                        10
                        Foundation                                   8
                        Sink                                         8
                        Site and neighborhood                        8
                        Ceiling                                      7
                        Access to unit                               7
                        Flush toilet in enclosed room                2
                        Water heater                                 2
                        Infestation                                  2
                        Space for food storage and preparation       2
                        Tub/shower in unit                           1
                        Fire exits                                   1
                                          Total                     373


             We provided our inspection results to the director of HUD’s Chicago Office of
             Public Housing and the Authority’s executive director on February 6, 2007.

Electrical Violations

             Eighty electrical violations were present in 37 of the Authority’s units inspected.
             The following items are examples of the electrical violations listed in the table:
             outlets with open grounds, holes and gaps in a breaker box, loose outlets, and
             exposed wires. The following pictures are examples of the electrical-related
             violations.




                                                   6
Unit #17: Broken
outlet with exposed
electrical contacts.




   Unit #26: Broken
   outlet and improper
   wire connection to a
   rusted junction box
   without a cover plate.




   Window Violations


                       Thirty-five window violations were present in 14 of the Authority’s units
                       inspected. The following items are examples of window violations listed in the
                       table: mold on windows, window ropes torn, windows that allow air infiltration,
                       and cracked window panes. The following pictures are examples of the window
                       violations identified.




                                                       7
Unit #29: Bedroom
window glazing is
missing allowing air
infiltration.




Unit #11: Loose spring
track and cracked glass
pane on the left front
bedroom window.




Security Violations

                Twenty-six security violations were present in 16 of the Authority’s units
                inspected. The following items are examples of security violations listed in the
                table: locks not working, missing striker plates, and broken door jambs. The
                following pictures are examples of the security violations identified.




                                                 8
 Unit #31: Broken
 exterior kitchen door
 jamb and missing striker
 plates.




 Unit #29: Missing latch
 bolt on door between
 kitchen and back porch.




All Violations Not Identified

              Although the required number of quality control inspections was performed by
              the Authority, they did not identfy all violations. Thirty-six quality control
              inspections were performed by the Authority from June 13, 2005, through May
              12, 2006. Eighteen (50 percent) of the units selected for quality control
              inspections that previously passed the Authority’s housing quality standards
              inspections failed the quality control review inspections. However, the results of
              the quality control reviews were insufficient to identify problematic inspectors or
              recurring issues, not discussed with the respective inspector, and a lack of
              consistent application of the relevant standards could not be addressed.


                                               9
Conclusion

             The housing quality standards violations existed because the Authority failed to
             exercise proper supervision and oversight of its program unit inspections. It also
             lacked adequate procedures and controls to ensure that its program units met
             HUD’s housing quality standards. The Authority’s households were subjected to
             health- and safety-related violations, and the Authority did not properly use its
             program funds when it failed to ensure that units complied with HUD’s housing
             quality standards. In accordance with 24 CFR [Code of Federal Regulations]
             982.152(d), HUD is permitted to reduce or offset any program administrative fees
             paid to a public housing authority if it fails to enforce HUD’s housing quality
             standards. The Authority disbursed $27,944 in housing assistance payments for
             the 35 units that materially failed to meet HUD’s housing quality standards and
             received $2,416 in program administrative fees.

             If the Authority implements adequate procedures and controls over its unit
             inspections to ensure compliance with HUD’s housing quality standards, we
             estimate that nearly $624,000 in future housing assistance payments will be spent
             for units that are decent, safe, and sanitary. We determined this amount by
             multiplying 105 units (estimate that would be in material noncompliance with
             housing quality standards if appropriate actions are not taken by the Authority)
             times $495 (average monthly subsidy of each housing unit). This amount was
             then annualized to give the total estimate. Our methodology for the estimate is
             explained in the Scope and Methodology section of this audit report.

Recommendations

             We recommend that the director of HUD’s Chicago Office of Public Housing
             require the Authority to

             1A.    Reimburse its program $30,360 from nonfederal funds ($27,944 for
                    housing assistance payments and $2,416 in associated administrative fees)
                    for the 35 units that materially failed to meet HUD’s housing quality
                    standards.

             1B.    Implement adequate procedures and controls to ensure that all units meet
                    HUD’s housing quality standards to prevent $623,700 in program funds
                    from being spent on units that are in noncompliance with the standards.

             1C.    Implement adequate procedures and controls to ensure that its supervisory
                    quality control inspections are conducted and documented, along with the
                    feedback provided to inspectors to correct recurring inspection
                    deficiencies noted.




                                             10
Finding 2: Controls over Housing Assistance and Utility Allowance
                      Payments Were Inadequate
The Authority failed to comply with HUD’s regulations and its program administrative plan
regarding housing assistance and utility allowance payments. It incorrectly calculated housing
assistance and utility allowance payments and lacked documentation to support housing
assistance and utility allowance payments to program landlords and households, respectively.
This noncompliance occurred because the Authority did not have adequate procedures and
controls to ensure that HUD’s regulations and its program administrative plan were appropriately
followed. As a result, it overpaid more than $39,000 and underpaid nearly $13,500 in housing
assistance and utility allowances and was unable to support more than $306,000 in housing
assistance and utility allowance payments made. Based upon our statistical sample, we estimate
that over the next year, the Authority will overpay nearly $137,500.


 Incorrect Housing Assistance
 Payment Calculations


                 From the Authority’s 1,053 active program households as of September 11, 2006,
                 we statistically selected 88 households’ files to determine whether the Authority
                 accurately verified and calculated the income information received from the
                 households on their housing assistance and utility allowance payments for the
                 period January 1, 2005, through August 31, 2006. Our review was limited to the
                 information maintained by the Authority in its households’ files. Of the 88 files
                 reviewed, 70 had discrepancies in the calculation of income and/or the utility
                 allowance schedule used, which resulted in incorrect housing assistance
                 payments.

                 According to HUD’s regulations at 24 CFR [Code of Federal Regulations]
                 5.240(c), public housing authorities must verify the accuracy of the income
                 information received from program households and change the amount of the
                 total tenant payment, tenant rent, or program housing assistance payment or
                 terminate assistance, as appropriate, based on such information.

                 The Authority’s miscalculation of households’ income resulted in $39,428 in
                 overpayments and $13,332 in underpayments of housing assistance and utility
                 allowances. We provided the Authority’s executive director and the director of
                 HUD’s Chicago Office of Public Housing with schedules of the overpayments
                 and underpayments of the housing assistance and utility allowances for the 70
                 households.

                 The following are examples of the types of errors found:

             •     The Authority miscalculated the annual income for household 2261 by not
                   including all of the household’s earned annual income. In addition, it did not
                   use the correct payment standard. As a result, it under calculated the annual


                                                 11
                income by more than $17,000 and it overpaid $5,585 in housing assistance for
                the audit period.

          •    The Authority miscalculated the housing assistance payments for household
               7490 due to a miscalculation of the utility allowances. It failed to use the
               correct utility allowance schedule for the city where the household resided.
               Also, it failed to use the correct type of utility allowance schedule. As a result,
               it underpaid $57 in housing assistance from September 1 through September 31,
               2005; $126 from October 1, 2005, through June 30, 2006; $62 from July 1
               through July 31, 2006; and $81 from August 1 through August 31, 2006,
               totaling $326.

          •    The Authority miscalculated the housing assistance payments for household
               4590 due to a miscalculation of the payment standards and utility allowances. It
               failed to use the correct payment standards and utility allowance schedule. As a
               result, it overpaid $486 in housing assistance from January 1 through October
               31, 2005, and underpaid $140 in housing assistance from February 1 through
               August 31, 2006, totaling a net overpayment of $346 during the audit period.

              Payments were not always computed accurately because the Authority lacked
              effective procedures and controls to ensure that all income and expenses were
              properly considered so that accurate housing assistance and utility allowance
              payments could be calculated. It did not use households’ appropriate annual or
              adjusted annual income, unit size, or utility allowances or calculate household
              expenses for payments. It also failed to exercise proper supervision and oversight
              of the certification process. The Authority’s program supervisors said that they
              conducted periodic quality control reviews of files to determine whether staff
              accurately calculated households’ housing assistance and utility allowance
              payments. However, the Authority could not provide documentation to support
              the reviews. Periodic quality control reviews are an important step in ensuring
              that the Authority’s housing assistance and utility allowance payments are
              accurate. The Authority’s administrative plan also did not address how
              households would be reimbursed when an underpayment of housing assistance
              payment occurs.

Documentation Lacking to
Support More Than $126,224 in
Housing Assistance and Utility
Allowance Payments


              The Authority initially lacked documentation to support households’ eligibility for
              $306,628 in program housing assistance and utility allowances when we issued our
              draft audit report during the audit. From the Authority’s 1,053 active program
              households as of September 11, 2006, we statistically selected 88 households’ files
              for review using the ACL Statistical Sampling software. We reviewed the files to
              determine whether the Authority maintained adequate documentation to support
              households’ admission to and selection for its program. Of the 88 household files

                                               12
             reviewed, 37 (42 percent) had missing or incomplete documents. The Authority
             provided supporting documentation with its written response to our discussion draft
             audit report. The documentation reduced the unsupported housing assistance and
             utility allowance payments to $126,224 for 20 (23 percent) of the 88 files reviewed.
             The 20 files had the following missing or incomplete documents:

                     ¾ Sixteen were missing proof of a criminal activity screening;
                     ¾ Three were missing birth certificate(s);
                     ¾ Two were missing annual inspections conducted within 12 months for
                       fiscal year 2006;
                     ¾ One was missing annual inspections conducted within 12 months for
                       fiscal year 2005;
                     ¾ One was missing HUD form 9886, Authorization for the Release of
                       Information and Privacy Act Notice; and
                     ¾ One failed to meet income eligibility at admission.

             The Authority received $14,297 in program administrative fees for the 20
             households lacking documentation supporting their eligibility for program
             housing and utility allowance payments as required by HUD’s regulations and the
             Authority’s program administrative plan.

Conclusion

             HUD lacked assurance that the Authority used its program funds efficiently and
             effectively since it overpaid $39,428 and underpaid $13,332 in housing assistance
             and utility allowances. If the Authority does not correct its certification process,
             we estimate that it could make more than $137,000 in excessive payments over
             the next year based on the error rate found in our sample and the net overpayment
             of housing assistance and utility allowances. Our methodology for this estimate is
             explained in the Scope and Methodology section of this audit report. The
             Authority could put these funds to better use if proper procedures and controls are
             put in place to ensure the accuracy of housing assistance and utility allowance
             payments.

Recommendations

             We recommend that the director of HUD’s Chicago Office of Public Housing
             require the Authority to

             2A.    Reimburse its program $39,428 in housing assistance from nonfederal
                    funds for the overpayment of housing assistance and utility allowance
                    payments cited in this finding.

             2B.    Reimburse the applicable households $13,332 for the underpayment of
                    housing assistance and utility allowances cited in this finding.


                                              13
2C.   Provide supporting documentation or reimburse its program $140,521
      ($126,224 in housing assistance and utility allowance payments plus $14,297
      in related administrative fees) from nonfederal funds for the unsupported
      payments and associated administrative fees related to the 20 households
      cited in this finding.

2D.   Implement adequate procedures and controls over its housing assistance
      and utility allowance payments to ensure that they meet HUD’s
      regulations and its program administrative plan to ensure that $137,402 in
      program funds is appropriately used for future payments.

2E.   Revise its program administrative plan to address how households will be
      reimbursed when an underpayment of housing assistance occurs.




                               14
Finding 3: The Authority’s Zero-Income Households Had Unreported
                               Income
The Authority did not use HUD’s Enterprise Income Verification system (system) to determine
that reported zero-income households had unreported income. Of the 34 households statistically
selected for review, 14 had unreported income that affected their housing assistance payments.
This problem occurred because the Authority lacked adequate procedures and controls to
perform appropriate income verification. As a result, it unnecessarily paid housing assistance
and utility allowances totaling more than $14,000 for households that were required to meet their
rental obligations.



 Income Verification Not
 Performed

              We statistically selected 34 zero-income households from the Authority’s 70 zero-
              income households as of September 11, 2006, to determine whether they had
              income according to HUD’s system for the period January 1, 2005, through
              August 31, 2006. Of the 34 households reviewed, 14 had income not reported to
              the Authority, but income information was available through HUD’s system.
              Therefore, the Authority provided excessive housing assistance for households.
              Our review was limited to the information maintained in HUD’s system.

              The following are examples of households with unreported income:

              •   The head of household for household number 7 had income, according to
                  HUD’s system, totaling $27,986. Since the household had income, the
                  Authority overpaid $3,002 in housing assistance from January 2005 through
                  August 2006.

              •   Household number 12 had income, according to HUD’s system, totaling
                  $21,909. Since the household had income, the Authority overpaid $4,265 in
                  housing assistance from January 2005 through August 2006.

              According to HUD’s Public and Indian Housing Notice 2005-9, as a possible way
              to reduce costs, program households can be required to report all increases in
              income between reexaminations, and public housing authorities can conduct more
              frequent interim income reviews for families reporting no income.

 Cause for Overpayments

              The overpayment of $14,480 in housing assistance to households that reported
              zero income but had income occurred because the Authority lacked adequate
              procedures and controls for performing appropriate income verification. The
              Authority did not have procedures requiring more frequent reviews of its zero-


                                               15
             income households or determining when and how the reviews should be
             conducted. It needs to make full use of HUD’s system or other third-party
             income verification for all households at the time of examinations.

             Further, the Authority’s program managers did not conduct periodic supervisory
             reviews to ensure that staff took appropriate steps to determine whether
             households who reported zero-income had unreported income. Periodic quality
             control reviews are an important step in ensuring that the Authority’s housing
             assistance and utility allowance payments are accurate.

Conclusion

             HUD lacks assurance that the Authority used its program funds so all eligible
             families can afford decent, safe, and sanitary housing. If the Authority does not
             correct its certification process, we estimate that it could make more than $23,000
             in excessive housing assistance payments over the next year based on the error
             rate found in our sample. Our methodology for this estimate is explained in the
             Scope and Methodology section of this audit report. The Authority could put
             these funds to better use if proper procedures are put in place to ensure the
             accuracy of housing assistance and utility allowance payments.

Recommendations


             We recommend that the director of HUD’s Chicago Office of Public Housing
             require the Authority to

             3A.    Pursue collection from the applicable households or reimburse its program
                    $14,480 in housing assistance from nonfederal funds for the overpayment
                    of assistance cited in this finding.

             3B.    Implement adequate procedures and controls to ensure that its households
                    that report zero income do not have income that would result in an
                    overpayment of housing assistance and utility allowances. These
                    procedures and controls should help to ensure that an estimated $23,624 in
                    housing assistance is accurate over the next year.

             3C.    Review the remaining 36 (70 minus 34) zero-income households as of
                    September 11, 2006, to determine whether they had unreported income.
                    For households that received excessive housing assistance and utility
                    allowance payments, the Authority should pursue collection and/or
                    reimburse its program the applicable amount from nonfederal funds.

             3D.    Terminate the program housing assistance to the applicable households
                    that certified that they had no income but did have income according to
                    HUD’s system.


                                             16
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

•       Applicable laws; regulations; the Authority’s 2005 program administrative plan; and HUD’s
        program requirements at 24 CFR [Code of Federal Regulations] Parts 5 and 982; HUD’s
        Public and Indian Housing Notices 2004-12, 2005-9, 2005-24, 2005-28, and 2006-3; and
        HUD’s Housing Choice Voucher Guidebook 7420.10.

•       The Authority’s accounting records, annual audited financial statements for 2004 and 2005,
        general ledgers, household files, computerized databases, policies and procedures, board
        meeting minutes for 2005 and 2006, organizational chart, and program annual contributions
        contract.

•       HUD’s files for the Authority.

We also interviewed the Authority’s employees, HUD staff, and program households.

We statistically selected 48 of the Authority’s program units to inspect using the ACL Statistical
Sampling software from the 165 units that were inspected by the Authority’s contractor and
passed from September 1 through November 30, 2006. The 48 units were selected to determine
whether the Authority ensured that its program units met HUD’s housing quality standards. Our
sampling criteria used a 90 percent confidence level, 50 percent estimated error rate, and
precision level of plus or minus 8 percent.

Our sampling results determined that 35 units materially failed to meet HUD’s housing quality
standards. Materially failed units were those with exigent health and safety violations that
predated the Authority’s previous inspections.

The Authority’s housing assistance payments register for October 1 through December 31, 2006,
showed that the average monthly housing assistance payment was $495. Projecting our sampling
results of the 35 units that materially failed to meet HUD’s housing quality standards to the
population indicates that 105 units or 64.03 percent of the population contains the attributes
tested (would materially fail to meet HUD’s housing quality standards). The sampling error was
plus or minus 8.88 percent. In other words, we are 90 percent confident that the frequency of
occurrence of the attributes tested lies between 64.03 and 81.80 percent of the population. This
equates to an occurrence of between 105 and 134 units of the 165 units in the population.

    •   The lower limit is 64.03 percent times 165 units = 105 units that materially failed to meet
        HUD’s housing quality standards.
    •   The point estimate is 72.92 percent times 165 units = 120 units that materially failed to
        meet HUD’s housing quality standards.
    •   The upper limit is 81.80 percent times 165 units = 134 units that materially failed to meet
        HUD’s housing quality standards.




                                                17
Using the lower limit of the estimate of the number of units and the average housing assistance
payment, we estimate that the Authority will annually spend $623,700 (105 units times $495
average payment times 12 months) for units that materially failed to meet HUD’s housing quality
standards. This estimate is presented solely to demonstrate the annual amount of program funds
that will be correctly paid over the next year on decent, safe, and sanitary housing if the
Authority implements our recommendation. While these benefits would recur indefinitely, we
were conservative in our approach and only included the initial year in our estimate. We also
considered that (1) the Authority’s contractor did not identify many of the preexisting violations
during its most recent inspections, (2) the units would not be scheduled for reinspection for
another year under normal circumstances, and (3) it would take the Authority’s contractor at
least a year to complete all inspections under an improved inspection process.

From the Authority’s 1,053 active program households as of September 11, 2006, we statistically
selected 88 households’ files for review by using the ACL Statistical Sampling software. We
reviewed the 88 files to determine whether the Authority maintained adequate documentation to
support the households’ admission and selection for its program. We also reviewed the files to
determine whether the Authority accurately verified and calculated the income information
received from the households for its housing assistance and utility allowance payments for the
period January1, 2005, through August 31, 2006. The Authority incorrectly calculated payments
for 70 of the 88 (79 percent) files reviewed. This resulted in total miscalculation of payments by
$52,760—to include overpayments of $39,428 and underpayments of $13,332 in housing
assistance and utility allowances.

Unless the Authority improves its calculation process, we estimate that it could make $137,402
in future excessive housing assistance and utility allowance payments. We determined this
amount by multiplying 2.99 percent (the percentage of the net excess housing assistance
payments for the 70 households’ files in the sample) times $4,595,371 (the total payments for the
population of households served). We determined the 2.99 percent by annualizing the net
excessive payments of $26,096 ($39,428 in overpayments minus $13,332 in underpayments
divided by the audit period of 20 months times 12 months, or $15,658) for our sample of 88
households divided by the $522,720 in housing assistance payments for one year ($5,940 times
the 88 households). This estimate is presented solely to demonstrate the annual amount of
program funds that could be incorrectly made if the Authority does not implement our
recommendation. While these benefits would recur indefinitely, we were conservative in our
approach and only included the initial year in our estimate.

We determined an estimate of $23,624 in future housing assistance overpayments due to
underreporting of income by zero-income households during the next 12 months. To do this, we
applied a 4.49 percent error rate found during our review of 34 statistically selected zero-income
households’ files to the estimated average annual housing assistance payments disbursed by the
Authority for all of its zero-income households ($526,151). We determined this error rate by
dividing the $14,480 in overpayments by the total housing assistance made for the 34 households
in our sample ($322,350) for the review period January 2005 through August 2006. We
calculated the Authority’s average annual housing assistance expense by annualizing the total
payments made to the 70 zero-income households in our sample’s population as of September
2006 ($43,846 times 12).




                                               18
We performed our on-site audit work between September 2006 and February 2007 at the
Authority’s offices located at 1609 Olive Street, Collinsville, Illinois. The audit covered the
period January 1, 2005, through August 31, 2006, but was expanded when necessary to include
other periods.

We performed our audit in accordance with generally accepted government auditing standards.




                                               19
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               20
Significant Weakness

           Based on our review, we believe the following item is a significant weakness:

           •   The Authority lacked sufficient procedures and controls to ensure compliance
               with HUD’s requirements and/or its program administrative plan regarding
               unit inspections and housing assistance and utility allowance payments (see
               findings 1, 2, and 3).




                                            21
                                   APPENDIXES

Appendix A

             SCHEDULE OF QUESTIONED COSTS
            AND FUNDS TO BE PUT TO BETTER USE

        Recommendation                                              Funds to be put
            number              Ineligible 1/     Unsupported 2/     to better use 3/
               1A                    $30,360
               1B                                                          $623,700
               2A                     39,428
               2B                                                             13,332
               2C                                       $140,521
               2D                                                           137,402
               3A                     14,480
               3B                                                            23,624
              Totals                $84,268             $140,521           $798,058


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
     activity that the auditor believes are not allowable by law; contract; or federal, state,
     or local policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured
     program or activity when we cannot determine eligibility at the time of audit.
     Unsupported costs require a decision by HUD program officials. This decision, in
     addition to obtaining supporting documentation, might involve a legal interpretation
     or clarification of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could
     be used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal
     of interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other
     savings which are specifically identified. In theses instances, if the Authority
     implements our recommendations, it will cease to incur program costs for units that
     are not decent, safe, and sanitary and for excessive housing assistance and utility
     allowance payments and, instead, will expend those funds in accordance with HUD’s
     requirements. Once the Authority successfully improves its controls, this will be a
     recurring benefit. Our estimate reflects only the initial year of this benefit.




                                             22
Appendix B

       AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                        23
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




                        24
Ref to OIG Evaluation   Auditee Comments




Comment 4



Comment 5

Comment 6




                        25
Ref to OIG Evaluation   Auditee Comments




Comment 7




                        26
Ref to OIG Evaluation   Auditee Comments




Comment 7




                        27
                       OIG Evaluation of Auditee Comments

Comment 1   The recommendations were revised to reflect the Authority’s corrective
            actions taken for the 40 units identified as failing the housing quality
            standards inspections conducted by our appraiser.

            In accordance with HUD’s requirements, the Authority must not make any
            housing assistance payments for a dwelling unit that fails to meet the housing
            quality standards. Further, HUD is permitted to reduce or offset any program
            administrative fees paid to a public housing authority if it fails to enforce
            HUD’s housing quality standards.

            The actions planned by the Authority, if fully implemented, should improve
            its housing quality standards inspections process.

Comment 2   We reviewed the documentation provided by the Authority, determined that
            17 of the 37 households originally questioned had sufficient supporting
            documentation, and revised Recommendation 2C in this audit report to reflect
            this.

            As previously stated above, the actions planned by the Authority, if fully
            implemented, should improve its file process to maintain complete and
            accurate records for the program.

Comment 3   While the Authority may disagree with the finding, its adoption of a quarterly
            interview process with program households claiming to have zero income, and
            its interest in implementing controls and procedures, indicates the Authority’s
            willingness to further address the importance of this issue.

Comment 4   The Authority’s repayment agreements are not specific as to the time period in
            question or the reason for the agreement.

Comment 5   The Authority contends that two of the zero income households were the
            responsibility of another housing authority due to portability. If the
            households were absorbed by another authority, the Authority should
            coordinate with the absorbing authority.

Comment 6   The Authority’s recovery efforts are commendable. With the addition of
            written procedures and controls, the Authority’s efforts should follow its
            written plan more closely.

Comment 7   We agree that these written procedures should improve the Authority’s
            housing quality standards inspections process and file accuracy. However, the
            Authority did not provided documentation to support that these procedures
            were implemented.




                                           28
Appendix C

                         FEDERAL REQUIREMENTS

Finding 1
HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.305(a) state that the public
housing authority may not give approval for the family of the assisted tenancy or execute a
housing assistance contract until the authority has determined that all the following meet
program requirements: (1) the unit is eligible, and (2) the unit has been inspected by the
authority and passes HUD’s housing quality standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.401 require that all
program housing meet HUD’s housing quality standards performance requirements, both at
commencement of assisted occupancy and throughout the tenancy.

HUD’s regulations 24 CFR [Code of Federal Regulations] 982.404(a) state that the owner
must maintain the unit in accordance with HUD’s housing quality standards. If the owner
fails to maintain the dwelling unit in accordance with HUD’s housing quality standards, the
authority must take prompt and vigorous action to enforce the owner’s obligations.
Remedies for such breach of the housing quality standards include termination, suspension or
reduction of housing assistance payments, and termination of the housing assistance
payments contract. The authority must not make any housing assistance payments for a
dwelling unit that fails to meet the housing quality standards unless the owner corrects the
defect within the period specified by the authority and the authority verifies the correction. If
a defect is life threatening, the owner must correct the defect within no more than 24 hours.
For other defects, the owner must correct the defect within no more than 30 calendar days (or
any public housing authority-approved extension).

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.405(a) require public
housing authorities to perform unit inspections before the initial move-in and at least
annually. The authority must inspect the unit leased to a family before the term of the lease,
at least annually during assisted occupancy, and at other times as needed to determine
whether the unit meets housing quality standards.

Finding 2
HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.240 state that the responsible
entity must verify the accuracy of the income information received from the family and
change the amount of the total tenant payment, tenant rent, or program housing assistance
payment or terminate assistance, as appropriate, based on such information.

HUD’s Housing Choice Voucher Program Guidebook 7420.10, chapter 5, pages 5-31
through 32, states that the medical expense deduction is permitted only for households in
which the head or spouse s at least 62 years of age or disabled (elderly or disabled
households). If the household is eligible for a medical expense deduction, the medical


                                               29
expense of all family members may be counted. Medical expenses are expenses anticipated
to be incurred during the 12 months following certification or reexamination, which are not
covered by an outside source such as insurance. The medical allowance is not intended to
give a family an allowance equal to the past year’s expenses but to anticipate regular ongoing
and anticipated expenses during the coming year.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.216(a) state that each
assistance applicant must submit the complete and accurate Social Security number assigned
to the applicant and to each member of the household who is at least six years of age. The
documentation necessary to verify the Social Security number of an individual is a valid
Social Security number issued by the Social Security Administration or such other evidence
of the Social Security number as HUD and, where applicable, the authority may prescribe in
administrative instructions.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.230(a) require each member
of the family of an assistance applicant or participant who is at least 18 years of age and each
family head and spouse regardless of age to sign one or more consent forms.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.508(b) require each family
member, regardless of age, to submit the following evidence to the responsible entity:

(1) For U.S. citizens or U.S. nationals, the evidence consists of a signed declaration of U.S.
citizenship or U.S. nationality. The responsible entity may request verification of the
declaration by requiring presentation of a U.S. passport or other appropriate documentation,
as specified in HUD guidance.

(2) For noncitizens who are 62 years of age or older or who will be 62 years of age or older
and receiving assistance under a Section 214-covered program on September 30, 1996, or
applying for assistance on or after that date, the evidence consists of a signed declaration of
eligible immigration status and proof of age document.

(3) For all other noncitizens, the evidence consists of a signed declaration of eligible
immigration status, one of the documents referred to in 5.510, and a signed verification
consent form.

(c) Declaration: (1) For each family member who contends that he or she is a U.S. citizen or
a noncitizen with eligible immigration status, the family must submit to the responsible entity
a written declaration, signed under penalty of perjury, by which the family member declares
whether he or she is a U.S. citizen or a noncitizen with eligible immigration status. (i) For
each adult, the declaration must be signed by the adult. (ii) For each child, the declaration
must be signed by an adult residing in the assisted dwelling unit who is responsible for the
child.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.901(a) include requirements
that apply to criminal conviction background checks by public housing authorities that
administer Section 8 and public housing programs when they obtain criminal conviction
records, under the authority of section 6(q) of the 1937 Act (United States Code



                                               30
42.1437d(q)), from a law enforcement agency to prevent admission of criminals to public
housing and Section 8 housing and to assist in lease enforcement and eviction.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.4 state that the voucher is
the document issued by the authority to a family selected for admission to the voucher
program. This document describes the program and procedures for the authority’s approval
of a unit selected by the family. The voucher also states obligations of the family under the
program.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.153 state that the public
housing authority must comply with the consolidated annual contributions contract, the
application, HUD regulations and other requirements, and its program administrative plan.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.158(a) state that the public
housing authority must maintain complete and accurate accounts and other records for the
program in accordance with HUD requirements in a manner that permits a speedy and
effective audit. The authority must prepare a unit inspection report. During the term of each
assisted lease and for at least three years thereafter, the authority must keep (1) a copy of the
executed lease, (2) the housing assistance payments contract, and (3) the application from the
family. The authority must keep the following records for at least three years: records that
provide income, racial, ethnic, gender, and disability status data on program applicants and
participants; unit inspection reports; lead-based paint records as required by part 35, subpart
B, of this title; records to document the basis for authority determination that rent to owner is
a reasonable rent (initially and during the term of a contract); and other records specified by
HUD.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.162(a)(3) state that the
authority must use program contracts and other forms required by HUD headquarters
including the tenancy addendum required by HUD.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.305(d) state that after
receiving the family’s request for approval of the assisted tenancy, the housing authority
must promptly notify the family and owner of whether the assisted tenancy is approved.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.311(d) state that if the
family moves out of the unit, the authority may not make any housing assistance payment to
the owner for any month after the month when the family moves out. The owner may keep
the housing assistance payment for the month when the family moves out of the unit.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.505(B)(4) state that if the
payment standard amount is increased during the term of the contract, the increased payment
standard amount shall be used to calculate the monthly housing assistance payment for the
family beginning on the effective date of the family’s first regular reexamination on or after
the effective date of the increase in the payment standard amount.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.516(a)(1) require the
authority to conduct a reexamination of family income and composition at least annually.
The authority must obtain and document in the client file third-party verification of the


                                               31
following factors or must document in the client file why third-party verification was not
available: (i) reported family annual income, (ii) the value of assets, (iii) expenses related to
deductions from annual income, and (iv) other factors that affect the determination of
adjusted income. At any time, the authority may conduct an interim reexamination of family
income and composition. Interim examinations must be conducted in accordance with
policies in the authority’s administrative plan. As a condition of admission to or continued
assistance under the program, the authority shall require the family head and such other
family members as the authority designates to execute a HUD-approved release and consent
form (including any release and consent as required under 5.230 of this title) authorizing any
depository or private source of income or any federal, state, or local agency to furnish or
release to the authority or HUD such information as the public housing authority or HUD
determines to be necessary. The authority and HUD must limit the use or disclosure of
information obtained from a family or from another source pursuant to this release and
consent to purposes directly in connection with administration of the program.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.517(a) state that the
authority must maintain a utility allowance schedule for all client-paid utilities, for cost of
client-supplied refrigerators and ranges, and for other client-paid housing services.




                                                32
